                              SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


ISP-IB-13-11                                  Office of Inspections                                 Feburary 2013




                    Inspection of

      the International Broadcasting Bureau’s 

          Philippines Transmitting Station





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                         1

Context                                               2

  Station History                                     2

  Mission                                             2

  International Broadcasting Bureau Resources         2

Executive Direction                                   3

Mission and Program Implementation                    4

  Poro Site                                           4

  Community Outreach                                  5

Resource Management                                   6

  Resource Profile                                    6

  Human Resources                                     6

  Budget and Financial Issues                         7

  Property Management                                 7

  Procurement                                         7

  Information Management                              7

Management Controls                                   9

  Property Management                                 9

  Cashier Operations                                  9

Security                                             11

List of Recommendations                              12

List of Informal Recommendations                     13

Principal Officials                                  14

Abbreviations                                        15





                                     iii

                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Key Judgments

   •	 The International Broadcasting Bureau’s (IBB) Philippines Transmitting Station provides
      shortwave and mediumwave broadcasting support to China and Southeast Asia. The
      station also supports satellite relay service for Voice of America (VOA) and other
      Broadcasting Board of Governors’ (BBG) operations. The station operates efficiently and
      meets IBB performance standards.

   •	 BBG has tentatively planned to close the Poro transmitting site, a step that will reduce
      operating costs annually by $650,000. IBB has not formally communicated instructions
      to close the site, however, and the station has not made plans to implement closure
      pending authorization from Congress and resolution of the President’s FY 2013 Budget
      Request.

   •	 The main transmitting station at the Tinang site has assumed responsibility for remote
      control operations in the Poro, Saipan, and Tinian sites, a practice that has allowed staff
      reductions and cost savings. Overall staffing levels have declined by 12 positions since
      the last inspection in 2006.

   •	 Long-standing community outreach programs and land use programs build goodwill with
      the station’s local neighbors but pose potential conflict-of-interest risks. The station is
      adequately managing these risks at present.

The inspection took place in Washington, DC, between September 4 and 21, 2012, and in
Tinang, the Philippines, between October 24 and 25, 2012. (b)(2)(b)(6)




                                       1
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Context
Station History

        The U.S. Government began broadcasting in the Philippines in 1945. At present, IBB
operates two transmitting stations on the Island of Luzon, located in Tinang and Poro.
Broadcasting began at these sites in 1969. Tinang, located about 80 miles from Manila, is the
larger facility, approximately 2,370 acres in size. The Poro site has been reduced in size and
scope of operation in recent years. Located about 115 miles from Tinang, it currently broadcasts
a mediumwave signal approximately 5 hours daily. IBB also operates domestic sites in the
Commonwealth of the Northern Mariana Islands, one on Saipan and one on Tinian, that fall
under the Tinang station’s operational control.

Mission

       The Tinang station transmits BBG programs by shortwave and satellite relay. Programs
include those of VOA and Radio Free Europe/Radio Liberty. These programs, in English and a
range of local languages, are directed to audiences in the Middle East; Russia; South, Southeast,
and Central Asia; China; Tibet; and Korea.

       Consonant with BBG’s strategic goal of employing “leading-edge communications
techniques and technologies,” the Tinang site remotely controls the transmission at Poro of
mediumwave broadcasts in English, Cantonese, and Vietnamese. This station also remotely
controls IBB broadcast facilities in Saipan and Tinian in the Commonwealth of the Northern
Mariana Islands. Conversely, IBB in Washington remotely controls some operations in Tinang.

       Reciprocal agreements require the Tinang station to broadcast programs of the
Philippines Broadcast Service and the Vatican, a modest commitment that does not present a
drain on the station’s resources.

International Broadcasting Bureau Resources

       The Tinang site consists of a large antenna farm and two fenced compounds. The first
compound contains the power generator building. The second includes temporary duty quarters
and an operations building. Most employees work in the site’s two main buildings: the
transmitter building, which also contains the administrative offices, and the facilities building.
Several other buildings on the compound house a small canteen, maintenance shops, and
equipment-storage space. The station’s U.S. direct-hire employees stay in the temporary duty
quarters from Monday through Thursday. They commute 2.5 hours to Tinang from Manila on
Monday mornings. At the Poro mediumwave station, four locally employed (LE) staff members
provide on-site maintenance, reporting to the station manager in Tinang.

       The BBG’s Office of Strategy and Development supports one contract worker in the
Philippines, at Quezon City. Reporting to the regional marketing officer based in Bangkok, the
contract worker promotes interest among Filipino radio and television broadcasters in carrying
BBG programs.
                                       2
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Executive Direction

        A Senior Foreign Service officer serves as the station manager. At the time of the
inspection, one other American, a construction manager, was assigned to Tinang, and a third was
slated to arrive. The construction manager has regional responsibilities to support construction
projects at IBB facilities in the region and travels outside the country frequently.

       LE staff members include 69 employees augmented by workers provided under the terms
of a master labor contract with a Filipino company. Morale at Tinang is satisfactory. Staff
members generally have a clear idea of their responsibilities. Most said they were satisfied with
their work and with the working environment at the station. Several commented that the station
manager took his open-door policy seriously and made himself available to employees wishing
to consult him or bring up their concerns. However, lower level local employees tended to feel
more remote from station management and lacked a sense of how decisions were made. (b) (5)


        Local employees expressed concern about the availability and equity of training
opportunities. The station has provided limited training to staff members and has designated a
training officer to oversee allocation of training resources, consistent with IBB Transmitting
Station Instructions. Most, although not all, of the staff members interviewed by the OIG team
asserted that they were not receiving adequate training, especially technical training in their area
of responsibility. The notable degree of concern about training may have reflected, in some
cases, poor communication on the part of local supervisors. The OIG team discussed this issue
with the station manager.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



Mission and Program Implementation

        The Tinang station reports an availability rate consistently greater than 99 percent.
Availability is a key performance measure that gauges the percentage of time the station is
actually broadcasting its programs to target countries. IBB Philippines Transmitting Station
availability averages are on a par with those of other IBB transmitting stations.

        The station has two primary program responsibilities. It broadcasts BBG programs on
shortwave and, in Poro, on mediumwave frequencies. The station also receives a high volume of
compressed digital files from IBB in Washington that are retransmitted to IBB facilities and
private and non-U.S. Government stations that broadcast the programs to their own audiences.
The OIG team did not visit the Poro and Commonwealth of the Northern Mariana Islands sites
but did interview LE staff members by telephone. The Poro facility is operated remotely from
Tinang, and the four local employees posted there report to the Tinang station manager. Their
work is limited to maintenance.

         One goal of the current BBG strategic plan is to “rationalize program delivery,” an effort
that includes deciding which shortwave and mediumwave transmission facilities should continue
to operate and which should be closed. In that context, IBB’s enhanced emphasis on satellite
transmission of radio and television products at Tinang is well placed. The station manager is
overseeing a number of construction projects at Tinang, including a significant expansion of the
master control room. The control room project was 90 percent completed in October 2012 and
will facilitate remote control of the Tinang, Poro, and Commonwealth of the Northern Mariana
Islands sites and of the satellite retransmitting operations.

        Other ongoing projects included the repair and replacement of building chillers, wiring,
water lines, antenna tower lights, relays, and transformers. The station manager successfully
tracked all these projects in monthly status reports to IBB. He reported no difficulties in
receiving support for these projects from IBB. Relationships with the embassy and the host
government are strong.

Poro Site

         The Poro site broadcasts a mediumwave signal that delivers VOA programs in English,
Cantonese, Special English, 1 and Vietnamese. At the time of the inspection, the signal was being
broadcast approximately 5 hours a day. According to IBB officials, listenership statistics suggest
that Poro site programming is not reaching its target audience. Possible causes include
engineering limitations in the site’s design that stem from the requirement to protect other
stations from interference, jamming of mediumwave signals, nonuse of mediumwave radios in
target markets, and programming of limited interest to target markets, among others.

       The President’s FY 2013 Budget Request released on February 13, 2012, included a
proposed program reduction entitled, “Close Obsolete Poro Transmission Facility.” Also, in its
April 20, 2012, meeting, BBG instructed the IBB Director to accelerate plans to close the Poro

1
    Special English is a simplified form of the English language that VOA uses for intermediate English speakers.
                                              4
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


site. Doing so would reduce annual operating costs by $650,000 and allow IBB to reprogram
funds to China and Tibet broadcasting and add a VOA satellite broadcasting component to these
target markets. At the time of the inspection, BBG had not received congressional authorization
needed to proceed with the closure of the Poro transmitting facility, pending resolution of the FY
2013 budget request. Therefore, IBB has not formally communicated to station management
instructions to close the Poro site, and station management has not developed a closure plan.

Community Outreach

        Several relatively modest community outreach programs have been in place for decades
in Tinang under the rubric of fostering harmonious relations with the population in the five
villages that surround the property. In years past, the communist New People’s Army was active
in the region. Although the potential for abuse of these programs exists, the OIG team believes
that the oversight and safeguards in place minimize the risk.

        The station occupies 2,370 acres of land leased from the Government of the Philippines.
Approximately one-third of the area is dedicated to station operations, and 1,401 acres of the
property are cultivated by local villagers based on long-standing agreements with the station.
Plots of land, ranging from 1 to 6 acres, are allocated on an annual basis to poor villagers from
five surrounding villages. Elected village leaders select families for participation in the program
based on need and forward their names to the station manager for review and final approval. The
station and each approved farmer then sign an agreement document that outlines the terms of
land use. Each village leader overseeing the program also signs a document, agreeing to assign
land in a fair and transparent way. A member of the station’s LE staff oversees the program and
monitors the villagers’ day-to-day adherence to program requirements. The station donates use
of the land free of charge, allowing the individual farmers involved to reap the full monetary
benefit from the crops they grow on the station’s grounds.

       The station also supports a program that feeds 10 poor families from each of the 5
neighboring villages. Station employees deliver rice, canned goods, and noodles to the recipients.
The senior elected official in each village selects participants. The station manager approves the
families’ participation after a local member confirms their indigent status.




                                       5
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
        The IBB Philippines Transmitting Station operates efficiently in its four primary
locations in Tinang, Poro, and the Commonwealth of the Northern Mariana Islands of Saipan and
Tinian. The primary resource management challenge facing the station is the future of the Poro
site and associated plans to close the site, which have been discussed in Washington but not
formally communicated to the station. If implemented, closure would require coordination on
personnel and property issues associated with termination of operations.

        To reduce operating costs, the IBB Philippines Transmitting Station implemented remote
control operations to allow control of the Tinang, Poro, and Commonwealth of the Northern
Mariana Islands sites from the master control room at the Tinang station. Most of the Tinang
station’s transmitting antennas date from 1969, but capital infrastructure appears to be in good
condition overall.

Resource Profile

The IBB Philippines Transmitting Station has the following resources:

• FY 2012 estimated budget of $7.61 million.

• An on-board staff level of 3 U.S. direct-hire employees and 71 LE staff members.

• Assets valued at $52 million, including capitalized property such as the following:

Shortwave transmitters and antennas
Mediumwave transmitter and antenna
Satellite Interconnect System
Buildings in four locations: Tinang site and Poro site
Generators, electrical equipment, and switch gear
Office supplies and transmitting equipment

Source: Transmitting Station Manager – data as of October 2012.

Human Resources

        The IBB Philippines Transmitting Station has undergone two reductions-in-force since
2000. Since the last inspection in 2006, the total number of on-board employees declined from
89 to 72. The IBB Philippines Transmitting Station reports a total of 19 vacant positions on the
embassy’s official staffing pattern. IBB management expects that further staffing reductions will
be likely if the Poro transmitting station closes.




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Budget and Financial Issues

        The IBB Philippines Transmitting Station has an operating budget of $7.61 million.
Investments in remote control technologies have allowed the station to reduce substantially the
number of positions needed to support the Poro and the Commonwealth of the Northern Mariana
Islands sites. The station reports no outstanding issues with the host government on
administrative operations.

Property Management

       The IBB Philippines Transmitting Station has in place procedures to enter real property,
vehicles, capitalized property, and nonexpendable property into the Property Inventory
Processing System. A spot check of vehicles and nonexpendable property identified no
discrepancies. The station conducted its annual inventory reconciliation and submitted its results
to IBB, with no reported shortages or overages.

Safety

         The IBB Philippines Transmitting Station’s safety plan is up to date and meets all
requirements. The station conducts periodic safety training and records employee participation,
as required. Employees reported that the station manager takes safety seriously and treats it with
the high priority it deserves. The Tinang site hosts an on-site nurse and medical unit; emergency
equipment is staged in appropriate locations and maintained correctly. The site has its own small
fire truck, trained first responders, and an active chemical biological response team. Except for
minor cuts, there have been no major safety incidents at any of the transmitting station’s sites in
recent years.

Procurement

        The IBB Philippines Transmitting Station procured $4.93 million in goods and services
in FY 2012, about half of which was for commercial electricity. The station employs the full
range of acquisition methods, including petty cash, purchase orders, blanket purchase
agreements, and contracts. Blanket purchase agreements, petty cash, and purchase card records
are controlled and reconciled appropriately. With respect to purchase orders, in some cases,
signatures from the receiving officer, the American accountable property officer, and property
custodian were not found in the simplified acquisition procurement files that the inspectors
reviewed. In one case, an employee outside the contracting office was involved in the negotiation
process for an item to be procured. The OIG team counseled station management on the need to
fully document internal controls applicable to receiving and to reiterate the importance of
keeping procurement activities under the direct control of contracting office personnel.

Information Management

        The information management unit is undertaking a complete renovation and replacement
of the Tinang station’s master control room. When completed, this project will facilitate more
efficient monitoring and remote control of all three transmitting sites from the Tinang station.
The unit’s responsibilities include maintaining the satellite data feed and the control room and
                                                 7
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


providing stationwide information management support. The information specialist is the
information systems security officer; IBB provides offshore monitoring of selected network
security functions.

    The IBB Philippines Transmitting Station does not maintain off-site backup media to allow
data recovery in the event of a disruption such as a fire or natural disaster. American employees
travel to Manila weekly and have the ability to transport backup storage media to an off-site
location.

       Informal Recommendation 1: The International Broadcasting Bureau should transport
       backup storage media for its Philippines transmitting station network to Manila on a
       weekly basis.




                                       8
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Management Controls

        Overall, the IBB Philippines Transmitting Station has in place satisfactory internal
controls over government property, procurement, and information technology. Because the
station is a small operation overseen by only three American officers, separation of duties cannot
be fully implemented for all internal controls. In addition, the station’s remote locations make
day-to-day oversight more challenging for the three subsidiary station locations.

        The station has outsourced to a local contractor a master workforce contract that includes
services such as motor vehicle support, gardening and janitorial services, radio technician
services, and medical services. This contract is valued at $545,000 annually. The OIG team
noted that the owner of the contract company is an (b) (5)                             who also
participates in the selection of participants in the station’s community outreach farming program.
(b) (5)
IBB Philippines Transmitting Station management is aware of the (b) (5)
                                                                             does not oversee
contractor activities. Continued vigilance is necessary to ensure that all contracting activities
associated with this contract comply fully with the Federal Acquisition Regulation and that
appropriate documentation is in place to support contract award and administration.

Property Management

       Property management procedures do not comply with requirements in 14 Foreign Affairs
Manual (FAM) 410 and in Transmitting Station Instruction -108 with respect to receiving and
inventory procedures. Under current procedures, the IBB Philippines Transmitting Station does
not have a centralized receiving point for the receipt of accountable property. A total of 11
employees are formally designated as receiving officers, including 2 contracting officers who
normally are not permitted to receive government property. The station manager is formally
designated as a contracting officer, receiving officer, and accountable property officer, roles that
must be separated to the extent possible. Property custodians both receive property and help
conduct the annual inventory. The lack of separation of duties for receiving and conducting
inventory procedures (b) (5)

Recommendation 1: The International Broadcasting Bureau should publish an updated standard
operating procedure to designate a single locally employed receiving officer, centralize receiving
procedures for accountable property, and maintain separation of duties during the annual
inventory process. (Action: IBB)

Cashier Operations

        The IBB Philippines Transmitting Station employs a Class B cashier with an (b) (5)
operating advance. The inspectors conducted a cash count and found that the Class B cashier
does not conduct daily reconciliations of her operating cash advance and transactions, as required
by 4 Foreign Affairs Handbook (FAH)-3 H-397.1-1. The lack of daily reconciliation results in
delays in electronically transmitting transactions and extends the processing time for in-transit
items.
                                        9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Recommendation 2: The International Broadcasting Bureau should review and publish
procedures to require daily reconciliation of the Class B cashier’s operating advance on days
when the cashier conducts transactions. (Action: IBB)




                                       10
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Security
       The regional security office in Manila provides effective and comprehensive support to
the IBB Philippines Transmitting Station’s Tinang and Poro sites. A classified annex to the
Embassy Manila inspection report contains discussion about the transmitting station’s security
programs.




                                      11
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The International Broadcasting Bureau should publish an updated
standard operating procedure to designate a single locally employed receiving officer, centralize
receiving procedures for accountable property, and maintain separation of duties during the
annual inventory process. (Action: IBB)

Recommendation 2: The International Broadcasting Bureau should review and publish
procedures to require daily reconciliation of the Class B cashier’s operating advance on days
when the cashier conducts transactions. (Action: IBB)




                                       12
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The International Broadcasting Bureau should transport backup
storage media for its Philippines transmitting station network to Manila on a weekly basis.




                                      13
                         SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                   Name     Arrival Date

Ambassador                           Harry K. Thomas, Jr.         04/10
Station Manager                       David J. Strawman           02/12




                               14
                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations
BBG               Broadcasting Board of Governors
FAH               Foreign Affairs Handbook
FAM               Foreign Affairs Manual
IBB               International Broadcasting Bureau
LE                Locally employed (staff)
OIG               Office of Inspector General
VOA               Voice of America




                             15
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





SENSITIVE BUT UNCLASSIFIED

